No. 19-1039

 

 

IN THE

Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC,

Petitioner,
v.

STATE OF NEW JERSEY, et al.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF THE PENNSYLVANIA
MANUFACTURERS’ ASSOCIATION AND
THE NEW JERSEY BUSINESS & INDUSTRY
ASSOCIATION AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,894 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

 

Colin Casey Hogén
Wilson-Epes Printing Co., Inc.
